<html>
<title> - VIEWS AND VISION OF MARK E. REY, UNDER SECRETARY FOR NATURAL RESOURCES AND THE ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
VIEWS AND VISION OF MARK E. REY, UNDER SECRETARY FOR NATURAL RESOURCES 
          AND THE ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            November 7, 2001

                               __________

                           Serial No. 107-73

                               __________

           Printed for the use of the Committee on Resources





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov
                         COMMITTEE ON RESOURCES

                                   _______

                           U.S. GOVERNMENT PRINTING OFFICE
76-035                         WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                


















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 7, 2001.................................     1

Statement of Members:
    Peterson, Hon. John E., a Representative in Congress from the 
      State of Pennsylvannia.....................................     1
        Prepared statement of....................................     2
    Otter, Hon. C.L. ``Butch'', a Representative in Congress from 
      the State of Idaho, prepared statement of..................    24

Statement of Witnesses:
     Rey, Mark E., Under Secretary for Natural Resources and the 
      Environment, U.S. Department of Agriculture................     2
        Prepared statement of....................................     4
        ``FY 2002 Proposed Hazardous Fuels Projects'' submitted 
          for the record.........................................     6
        Letter from Dale N. Bosworth, Chief, Forest Service, U.S. 
          Department of Agriculture, submitted for the record....    14

















   HEARING ON THE VIEWS AND VISION OF MARK REY, UNDER SECRETARY FOR 
 NATURAL RESOURCES AND THE ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

                              ----------                              


                      Wednesday, November 7, 2001

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 4:25 p.m., in 
Room 1334, Longworth House Office Building, Hon. John E. 
Peterson presiding.

  STATEMENT OF THE HON. JOHN E. PETERSON, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Peterson. Good afternoon. The Subcommittee on Forests 
and Forest Health will come to order.
    The Subcommittee is meeting today to hear testimony on the 
views and visions of Mark Rey, Under Secretary for Natural 
Resources and Environment. Under Rule 4(g), the Chairman and 
the Ranking Minority member can make opening statements. If any 
other Members have statements, they can be included in the 
hearing record under unanimous consent.
    Today the Subcommittee will have the distinct privilege of 
hearing from Mark Rey, the newly confirmed Under Secretary of 
Natural Resources and Environment. Along with the Chief of the 
Forest Service, the position of Under Secretary for Natural 
Resources and Environment is at the center of the national 
forest policymaking universe. As Under Secretary, Mark will be 
tasked with the considerable challenge of addressing the many 
weighty policy issues now confronting the management of 
America's forest lands. The purpose of today's hearing is to 
both hear the Under Secretary's views on those important issues 
and to provide the Under Secretary with our own thoughts, 
guidance, and recommendations.
    Mark comes to the position of Under Secretary with a strong 
background in natural resource policy and in Washington 
policymaking. Prior to his appointment and confirmation to the 
Department of Agriculture, he served on the Senate Energy and 
Natural Resources Committee as the senior staffer for national 
forest policy and Forest Service administration. In this 
capacity, Mr. Rey played a leading role in the enactment of a 
number of important pieces of legislation, including the 
Herger-Feinstein Quincy Library Act and the Secure Rural 
Schools and Community Self-Determination Act.
    While some national environmental organizations have been 
quick to cast aspersions on his appointment, something these 
groups have become rather well practiced at over the years, the 
reality is that Mark has earned the respect and admiration of 
Republicans and Democrats alike over the years, a reality 
underscored when Mark was confirmed in the United States Senate 
by unanimous consent. In my opinion, Mr. Rey is the right man 
for the job of Under Secretary during this critical juncture in 
the history of the USDA Forest Service.
    It is with this that I welcome Mark and thank him for 
taking the time to appear before our Subcommittee. I know the 
hearing will be a constructive dialogue, one that I look 
forward to continuing with Mr. Rey, Mr. Inslee, and other 
Members of this Subcommittee in the coming weeks, months and 
years.
    [The statement of Mr. Peterson follows:]

 Statement of the Hon. John E. Peterson, a Representative in Congress 
                    from the State of Pennsylvannia

    Today the Subcommittee will have the distinct privilege of hearing 
from Mark Rey, the newly confirmed Undersecretary for Natural Resources 
and Environment. Along with the Chief of the Forest Service, the 
position of Undersecretary for Natural Resources and Environment is at 
the center of the National Forest policymaking universe. As 
Undersecretary, Mark will be tasked with the considerable challenge of 
addressing the many weighty policy issues now confronting the 
management of America's forestlands. The purpose of today's hearing is 
to both hear the Undersecretary's views on these important issues and 
to provide the Undersecretary with our own thoughts, guidance and 
recommendations.
    Mark comes to the position of Undersecretary with a strong 
background in natural resource policy and in Washington policymaking. 
Prior to his appointment and confirmation to the Department of 
Agriculture, he served on the Senate Energy and Natural Resources 
Committee as the senior staffer for national forest policy and Forest 
Service administration. In this capacity, Mr. Rey played a leading role 
in the enactment of a number of important pieces of legislation, 
including the Herger/Feinstein Quincy Library Act and the Secure Rural 
Schools and Community Self-Determination Act.
    While some national environmental organizations have been quick to 
cast aspersions on his appointment--something these groups have become 
rather well practiced at over the years--the reality is that Mark has 
earned the respect and admiration of Republicans and Democrats alike 
over the years--a reality underscored when Mark was confirmed in the 
United States Senate by unanimous consent. In my opinion, Mr. Rey is 
the right man for the job of Undersecretary during this critical 
juncture in the history of the USDA Forest Service.
    It is with this that I welcome Mark and thank him for taking the 
time to appear before our Subcommittee. I know the hearing will be a 
constructive dialogue, one that I look forward to continuing with Mr. 
Rey, Mr. Inslee and the other Members of this Subcommittee in the 
coming weeks, months and years.
                                 ______
                                 
    Mr. Peterson. Does Mr. Inslee have an opening statement? 
Okay.
    All right. At this time I recognize you, Mr. Rey, for your 
comments, and welcome to the House.

 STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL RESOURCES 
  AND THE ENVIRONMENT, UNITED STATES DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you. Thank you all. Mr. Chairman and members 
of the Subcommittee, the opportunity to serve as Under 
Secretary of Agriculture for Natural Resources and the 
Environment is the greatest honor I have been accorded in a 
long career in the natural resources area. It is also the 
greatest challenge that I have been asked to meet since 
arriving in Washington, D.C. almost 26 years ago.
    I would like to start by expressing my deepest thanks to 
President Bush and Secretary Veneman for their confidence and 
trust in my ability to fulfill the responsibilities of the 
office.
    I come before you today sincerely convinced that the job of 
Under Secretary of Agriculture for Natural Resources and the 
Environment is one of the most vital positions in the Federal 
Government. Other offices will undoubtedly make a greater 
contribution in important areas such as national security or 
public health, particularly in light of the events of September 
11th. However, no assignment carries a greater trust 
responsibility to the American people than the stewardship of 
our Nation's soil, water, and forests.
    David Ben-Gurion once wrote that ``The soil is the source 
of life, creativity, culture, and real independence.'' Earlier, 
Franklin Roosevelt spoke that ``forest are the `lungs' of the 
land, purifying the air and giving fresh strength to our 
people.'' And still earlier, Samuel Langhorne Clemens wrote 
that ``whiskey's for drinking, but water's for fighting 
about.''
    Given the importance of my assignment, I would like to 
begin our time together today talking about what you can expect 
from me as Under Secretary of Agriculture in working with the 
Congress.
    First, I want you to know that I am committed to bipartisan 
collaboration in overseeing the stewardship of America's soil, 
water, and forest resources. In my years of service to the 
Senate, I am most proud of the initiatives to which I have 
contributed that passed Congress with overwhelming bipartisan 
support. For over a century, our greatest gains in securing 
enlightened stewardship of our natural resources have occurred 
when men and women of both parties have bridged their 
differences and found common ground on behalf of the American 
people.
    Second, I want you to know that I respect the special role 
reserved for Congress in the constitution for the development 
and implementation of America's natural resource policies. 
Having spent 6 years working for the Congress, I appreciate 
first-hand the importance of congressional oversight and 
involvement in the development and implementation of these 
matters. My advocacy for an active congressional role in this 
area has not changed with my transfer to the executive branch 
of our government. Secretary Veneman has often stated that she 
believes in working cooperatively with Congress, and I strongly 
share her belief.
    Third, I offer you my experience. For over a quarter 
century I have worked with and around the agencies that I am 
now tasked with overseeing. A good portion of the enthusiasm 
and humility that I bring to this task stems from a recognition 
of the dedication and skill of the public servants working in 
this area. They need attentive critics, but they have earned 
our respect, gratitude, support, and affection.
    Fourth, I offer you an open mind. I consider myself a good 
and active listener. You won't be hard-pressed to find people 
who have disagreed with me, but I think most of them will 
confirm that we disagreed without being disagreeable. In order 
to fairly sort out conflicting facts and opinions--and in this 
area of policy everyone claims his or her own set of each--an 
Under Secretary should be physically and intellectually 
accessible to all parties. I pledge to you to keep open both my 
office door and my thinking processes.
    I understand that Forest Service Chief Dale Bosworth 
presented somewhat similar testimony before this Subcommittee 
on May 15th, when he discussed his views and visions as Chief 
of the Forest Service. I have reviewed his testimony, and share 
Chief Bosworth's priorities to, first, provide support and 
resources for on-the-ground work; second, reconnect the 
Washington Office headquarters of the Forest Service with the 
field; and, third, empower local parties in natural resources 
decisionmaking.
    Both the Chief and I are committed to agency accountability 
by implementing financial reforms to bring financial management 
and accounting of agency assets into full compliance with best 
business management standards. Finally, the Chief and I are 
committed to the National Fire Plan, with a strong focus on 
protecting communities from the dangers of catastrophic fires; 
managing the Nation's forests and rangelands to protect 
communities and natural resources; and providing services and 
products on a sustainable basis. I support these commitments 
from the Chief as top priorities for the Forest Service, and I 
look forward to working with him and with this Subcommittee in 
seeing to their achievement.
    Winston Churchill once wrote that ``we make a living by 
what we get, and we make a life by what we give.'' President 
Bush, with the consent of the Senate, has given me an 
opportunity to serve the American people. Working together, I 
hope that we can use this opportunity to advance the 
enlightened stewardship of our Nation's resources.
    Thank you very much.
    [The prepared statement of Mr. Rey follows:]

 Statement of Mark Rey, Under Secretary for Natural Resources and the 
              Environment, U.S. Department of Agriculture

    Mr. Chairman and members of the Committee, the opportunity to serve 
as Under Secretary of Agriculture for Natural Resources and the 
Environment is the greatest honor I have been accorded in a long career 
in the natural resources area. It is also the greatest challenge I have 
been asked to meet since arriving in Washington, DC almost 26 years 
ago.
    I would like to express my deepest thanks to President Bush and 
Secretary Veneman for their confidence and trust in my ability to 
fulfill the responsibilities of the office.
    I come before you today sincerely convinced that the job of Under 
Secretary of Agriculture for Natural Resources and Environment is one 
of the most vital positions in the federal government. Other offices 
will undoubtedly make a greater contribution in important areas such as 
national security or public health. However, no other assignment 
carries a greater trust responsibility to the American people than the 
stewardship of our nation's soil, waters, and forests.
    David Ben-Gurion once wrote, ``The soil is the source of life, 
creativity, culture, and real independence.'' Earlier, Franklin D. 
Roosevelt spoke that ``forests are the ``lungs'' of our land, purifying 
the air and giving fresh strength to our people.'' Still earlier, 
Samuel Langhorne Clemens wrote that ``whiskey's for drinking, but 
water's for fighting about.
    Given the importance of this assignment, I would like to begin our 
time together today talking about what you can expect from me, as the 
Under Secretary of Agriculture, in working with Congress.
    First, I am committed to bipartisan collaboration in overseeing the 
stewardship of America's soil, water, and forest resources. In my years 
of service with the Senate, I am most proud of the initiatives to which 
I contributed that passed Congress with overwhelming, bipartisan 
support. For over a century, our greatest gains in securing the 
enlightened stewardship of our natural resources have occurred when men 
and women of both parties have bridged their differences and found 
common ground on behalf of the American people.
    Second, I want you to know that I respect the special role reserved 
for Congress in the Constitution for the development and implementation 
of America's natural resource policies. Having spent six years working 
for the Congress, I appreciate first hand the importance of 
congressional oversight and involvement in the development and 
implementation of these matters. My advocacy for an active 
congressional role in this area has not changed with my transfer to the 
Executive Branch of our government. Secretary Veneman has often stated 
that she believes ``in working cooperatively with Congress.'' I 
strongly share her belief.
    Third, I offer you my experience. For over a quarter-century, I 
have worked with and around the agencies I must now oversee. A good 
portion of the enthusiasm and humility I bring to this task stems from 
recognition of the dedication and skill of the public servants working 
in this area. They need attentive critics, but they have earned my 
respect, gratitude, support, and affection.
    Fourth, I offer you an open mind. I consider myself to be a good 
and active listener. You won't be hard pressed to find people who have 
disagreed with me. But I think most, if not all, of them will confirm 
that we disagreed without being disagreeable. In order to fairly sort 
out conflicting facts and opinions--and, in this policy area, everyone 
claims his or her own set of each--an Undersecretary should be 
physically and intellectually accessible to all parties. I pledge to 
keep open both my office door and my thinking processes.
    I understand that Chief Dale Bosworth presented similar testimony 
before this Committee on May 15, 2001 when he discussed his views and 
vision as Chief of the Forest Service. I have reviewed this testimony 
and share Chief Bosworth's priorities to: (1) provide support and 
resources for ``on-the-ground'' work; (2) reconnect the Washington 
Office headquarters of the Forest Service with the field; and (3) 
empower local parties in natural resources decision-making.
    Both the Chief and I are also committed to Agency accountability by 
implementing financial reforms to bring financial management and 
accounting of agency assets into full compliance with best business 
management standards. Finally, the Chief and I are committed to the 
National Fire Plan, with a strong focus on: (1) protecting communities 
from the dangers of catastrophic fire; (2) managing the Nation's 
forests and rangelands to protect communities and natural resources; 
(3) and providing services and products on a sustainable basis. I 
support these commitments from the Chief as top priorities for the 
Forest Service, and I look forward to working with him and this 
Committee in seeing to their achievement.
    Winston Churchill once wrote that ``we make a living by what we 
get, we make a life by what we give.'' President Bush, with the consent 
of the Senate, has given me an opportunity to serve the American 
people. Working together, I hope that we can use this opportunity to 
advance the enlightened stewardship of our nation's resources.
    Thank you very much.
                                 ______
                                 
    [Attachments to Mr. Rey's statement follow:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Peterson. Thank you. We look forward to working with 
you.
    We are going to give each Member 5 minutes. I will start, 
and then we will go from side to side, and then there will be a 
second round if you stay, as long as you want to stay and as 
long as Mr. Rey is available.
    The first question, Under Secretary, is the Roadless Area 
Conservation Rule designated nearly 60 million acres. We are 
interested in the outcome of that rule. On May 10th a Federal 
judge in Idaho preliminarily enjoined the rule. What is the 
current status of the Roadless Area Rule litigation?
    Mr. Rey. The appeal of Judge Lodge's decision--that was the 
judge in Idaho who preliminarily enjoined the rule--is 
presently before the 9th Circuit Court of Appeals. The 
arguments on appeal have been rendered. We are awaiting the 
Circuit Court's decision. In the interim, Judge Lodge has 
scheduled a hearing date to decide whether a permanent 
injunction should issue in his court. That hearing date is for 
the latter part of this year.
    There are seven other lawsuits--or, I am sorry, nine other 
lawsuits--in four other judicial circuits. We, the government, 
has moved to stay those suits pending the outcome of both the 
9th Circuit's disposition of the appeal of Judge Dwyer's 
decision, and of course of Judge Dwyer's decision, as well. So 
that is where the litigation stands.
    The administration has moved forward with an Advance Notice 
of Proposed Rulemaking earlier this year, to solicit public 
comments on the direction that we should proceed from here. 
Today the Forest Service and a consortium of conservation 
groups agreed, by an exchange of letters, that we would support 
their efforts to initiate a dialogue on the future direction of 
the Roadless Rule. We agreed in that exchange of letters to be 
guided by that dialogue as to how we proceed to implement the 
new rule.
    Mr. Peterson. If the District Court decision ultimately 
stands, what do you think the final disposition of the roadless 
debate will look like?
    Mr. Rey. Secretary Veneman and the President have both 
indicated their commitment to protect roadless values. If Judge 
Lodge's decision stands, we will proceed to honor that 
commitment through a new rulemaking. I can't at this time tell 
you what that rulemaking would look like. As I indicated, we 
hope that it will be guided by the good faith dialogue that a 
consortium of environmental interests have indicated that they 
would like to work with us to sponsor.
    Mr. Peterson. Chief Bosworth issued interim protections for 
roadless areas earlier this year, requiring his personal sign-
off. Are you aware of any that he has signed off on?
    Mr. Rey. No. To my knowledge, there have been none.
    Mr. Peterson. The Forest Service investigation of the 
Thirtymile fire tragedy identified a massive breakdown in on-
site command control as the primary cause of the fatalities, a 
coordination breakdown with alarming similarities to what 
occurred during the Storm King Mountain fire in Colorado, where 
several fire fighters were also killed in action. Recently, the 
Chief identified several action items and policy changes, with 
the stated goal of avoiding similar tragedies in the future. 
What are these action items, and what assurances can you give 
Congress, and the loved ones of those who died during the 
Thirtymile and Storm King fires, that those changes will be 
implemented?
    Mr. Rey. Many of those changes are already being 
implemented. The investigation report on the Thirtymile fire 
suggested some similar breakdowns that occurred in the Storm 
King Mountain fire. It also suggested a number of new and novel 
errors in the fire fighting effort. The investigative report 
was extensive in recommending a number of changes that had to 
take place. Those are being implemented as we speak.
    Mr. Peterson. The investigation also identified a delay in 
water drops on the fire as an influencing factor. The Forest 
Service field officers delayed deployment of water, the 
investigation concluded, for fear of adversely impacting 
endangered species of fish.
    Congressman McInnis has drafted language that in essence 
would take the health and safety emergency exception found in 
the Wilderness Act and place it in the Endangered Species Act. 
Given the unmistakable confusion surrounding emergency 
exemption authorities under ESA, do you think this bill is a 
good idea?
    Mr. Rey. The guidance that exists today, in our view, is 
clear that there should have been no delay with respect to the 
Endangered Species Act. There nevertheless was an identified 
delay of somewhere in the neighborhood of 2 hours because of 
confusion in that regard.
    Obviously, if you were to emphasize this with language 
comparable to that language that already exists in the 
wilderness bill, that would be helpful. Otherwise, we are 
committed to making sure that this does not repeat itself again 
in the future.
    Mr. Peterson. I would agree with you. If it is good enough 
for the Wilderness Act, it should be good enough for ESA.
    We will recognize the gentleman from Michigan, Mr. Kildee, 
for questions.
    Mr. Kildee. Thank you, Mr. Chairman.
    First of all, it is a great pleasure to welcome a fellow 
alumnus from the University of Michigan to the hearing room.
    Mr. Rey. We had a hard weekend on Saturday.
    Mr. Kildee. It was a great game, wasn't it. It went the 
wrong way, but it was a great game anyway. It is great to have 
someone from Ohio, particularly, attending the University of 
Michigan.
    [Laughter.]
    Mr. Rey. That is a Michigan perspective.
    Mr. Kildee. I am sure it is.
    The administration is on record as being committed to 
providing roadless protection for our forests. In general, 
could you discuss what amendments you are considering to the 
rule, and how would you specifically reconcile local input that 
may favor opening up wilderness roadless areas for short terms 
gains with this commitment?
    Mr. Rey. Where we are at right now is, we are nearly 
complete with an evaluation of the comments that we received on 
the Advance Notice of Proposed Rulemaking. And, as I said a 
moment ago, today we exchanged letters with a consortium of 
environmental groups who want to sponsor for us a dialogue with 
a wide variety of groups to look at the best way to protect 
roadless values while being sensitive to local concerns. I am 
very optimistic that that dialogue will give us some new 
insights and new ideas on how best to proceed.
    So at this point I am not in a position to indicate what 
specific changes we might make to the existing rule, should the 
courts eventually enjoin it permanently, but I am here to tell 
you that we are committed to protecting roadless values. We are 
eager to work with groups from across the spectrum. WE are 
excited that a consortium of groups is willing to help us in 
that regard, and interested in moving forward, and committed to 
consulting with the Congress at each step along the way.
    Mr. Kildee. I think it is important because you are going 
to have, fairly regularly, I think, some conflict between what 
the locals may see as a short-term gain for their economy and 
the long-term needs for our Nation as far as preserving some of 
these roadless areas, and I hope that we have some type of 
measuring stick to weigh those things and not just let it be, 
you know, willy-nilly as to a particular situation, to be some 
type of verification, qualification, to see how you would 
distinguish.
    Because you in most cases will find local people feeling 
that lumbering, timber harvesting, putting roads through there 
will be to their short-term gain, but it might not be in the 
national interest. So I hope that you will try to work out some 
type of objective criteria.
    Mr. Rey. Balancing short-term needs and long-term values is 
going to be one of the toughest things that I am going to have 
to do in this position, and we will have to find an organized 
way to make that evaluation.
    But one of the things that is evolving is the view of local 
communities of interest adjacent to our national forests. They 
are much more diverse now than they were 20 years ago. They 
include environmentalists, timber workers, ranchers, and as 
broad a cross-section of individuals as you will find here at 
the national level. And that has helped, I think, leaven the 
debate that occurs locally, and is something that I value as an 
opportunity to find a greater degree of consensus in how we 
make these decisions.
    Mr. Kildee. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Peterson. Thank you. We recognize the gentleman from 
Colorado, Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman.
    Mr. Rey, I really appreciate the fact that you are here 
today and I appreciate your testimony. And I guess to a certain 
extent I want to give you the other side of the story, when it 
comes to to whom you will pay attention as you develop rules, 
the local community or the ``broader national interest.''
    It seems to me that that local community has, up to this 
point in time anyway, been all too often left out of the 
equation entirely, and that environmental concerns, whether 
real or perceived, have overridden any of the concerns 
expressed by people in the communities that are impacted 
directly. So it is my hope that you will just do almost the 
opposite as what you have been requested to do here by Mr. 
Kildee, and that is to stress the importance of local input in 
any decisionmaking process.
    Along those lines, I just wonder if you can tell me why you 
actually think we need a rule, another rule. I mean, isn't it 
true that pretty much everything you want to accomplish, that 
we want to accomplish in terms of national goals, can be 
accomplished under the present law, with the wilderness 
designation, for instance, or existing authority given to the 
department under a variety of other laws? I mean, why, exactly, 
do we need a rule?
    Mr. Rey. You are correct, we could dispose of our 
recommendations concerning the status of roadless areas on a 
forest-by-forest basis, making those recommendations to the 
Congress, for Congress to evaluate whether the areas or some 
portion of them should be designated as wilderness. And indeed, 
absent the development of any new rule, that analysis will 
continue as we revise forest plans and as we make 
recommendations to you.
    At the same time, our experience over the last roughly 20 
years, since about 1980, is that that process is bogging down, 
and is as frustrating for environmentalists as it is for groups 
who want to make more intensive use of our public lands.
    It may be, in the aftermath of a rule that some would say 
did not take into account local sensibilities, and at least for 
now the courts have deemed unlawful, we have an opportunity to 
see if we can improve upon the relatively slow and in most 
cases grudging progress that we have made over the last 20 
years. And I am committed, as is Secretary Veneman and as the 
President, to seeing if we can.
    I would have to tell you, in all honesty, we may end up at 
the same place, with nothing that we can think of that will 
pass legal muster. But we are committed to trying, and hope 
that you and everyone in the Congress is committed to working 
with you on that.
    Mr. Tancredo. And I commend you to your task, and have no 
other questions.
    Mr. Peterson. You didn't ask me the question, but being I 
have the Chairmanship for the moment, I will share my view. I 
think it was very unfair that the last Administration waited 
until January the 10th to finalize this regulation. Originally, 
if my memory is correct, we were at 30,000 miles of roads, and 
then it went to 40,000, and then at the end it ended up being 
60,000.
    And it was a ploy. Instead of having good discussion, good, 
meaningful debate between local and national interest, it 
pushed the ball up field so far that it forced the other side 
to play defense instead of having meaningful discussions. So I 
think it is government at its worst, and that we suffer for it. 
I am not against roadless areas, but they should never be done, 
in my view, in that manner. You didn't ask me, but that is just 
my opinion.
    I will be glad to welcome Mr. Udall from New Mexico.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman, and 
welcome, Mr. Rey. Good to have you here.
    I have seen a number of reports, that you have said that 
there is a need to revise some or maybe all of the 
environmental laws that are on the books now. Is that an 
accurate statement on your part?
    Mr. Rey. I think ``some'' is accurate. I don't think 
``all'' is anything that I have said. I usually try to stay 
away from comments that I know are going to get me in trouble, 
as opposed to just those that I suspect may.
    [Laughter.]
    Mr. Rey. So, yes, I have said in the past that we should 
revise some, we should consider--
    Mr. Udall of New Mexico. Can you tell us which laws those 
are, and in what ways they need to be changed and why?
    Mr. Rey. I will offer that to you in generalities, and I 
will leave to the Forest Service, when the Subcommittee chooses 
to reschedule the hearing that you would have had but for the 
anthrax contamination a few weeks ago, because they were 
prepared to offer some fairly detailed testimony about what 
needs to be changed based upon the agency's analysis. I think 
it would be fair to let them speak first.
    But in general terms, the statutes that govern public land 
management--that is the 1976 National Forest Management Act and 
the 1976 Federal Land Policy Management Act--are statutes that 
I think would benefit from congressional review and updating. 
They were written at a time when the societal concerns that we 
placed against public land management issues are different than 
the concerns we have today. We have learned a lot in 25 years, 
and that learning should be reflected in our statutes. And so 
those are the two at the top of my list, because I think we 
could achieve a lot in terms of more enlightened land 
stewardship at a more affordable cost if we took a hard look at 
those two statutes.
    Mr. Udall of New Mexico. Could you be a little bit more 
specific about these two acts and how you think they should be 
changed, in reflecting on what has happened in the last 25 
years?
    Mr. Rey. Well, let me give you one specific example, and 
then we can elaborate on that. In the 1976 act, Section 6 of 
the act spoke to a question of species conversion, and what 
Congress was concerned about at that time was converting 
hardwood stands in the Ozarks to pine. So they wrote language 
that directed the Forest Service, or I should say limited the 
Forest Service's authority to do that sort of thing.
    And that language is itself still useful, but it doesn't 
capture the entirety of the ecosystem challenges that we now 
face, and I think we could do a much better job in managing 
more clearly and more understandably at a lower cost if we were 
to update that language to reflect some of what we have learned 
about forest sustainability over the last 25 years. We are 
using language that in a sense is an artifact of an earlier 
era.
    If you analogize--and this is a fairly humble analogy but I 
will use it anyway--if you analogize to the tools we use in 
forest management, let's for the moment say that laws are 
tools. They are things that Congress gives the executive branch 
to work with in carrying out our responsibilities. If you 
analogize to tools, the kinds of tools we were using to manage 
the national forests in 1976 were slide rules and mainframe 
computers.
    We adapted FORTRAN, which was one of the earliest computer 
languages, for an application for the national forests called 
FORPLAN. Nobody uses FORTRAN anymore as a language. As a 
computer language, it is dead, but yet we are still using 
FORPLAN applications--and we are not using FORPLAN applications 
as a consequence. We are using different computer applications 
that reflect what we have learned in 26 years, and we have 
updated those tools, those kinds of tools. Nevertheless, we are 
still trying to manage under a statute that is 25 years old, 
and that doesn't reflect what we have learned in the last 25 
years.
    Mr. Udall of New Mexico. When you worked with the Senate 
Energy and Natural Resources Committee and there were 
recommendations made about the National Forest Management Act, 
to do away with citizen oversight committees, are those, is 
that one of the things that you are going to recommend be 
changed?
    Mr. Rey. No, no. In fact, I am in favor of greater use of 
citizen oversight committees, and legislation that the Congress 
passed last year would direct the Forest Service to do that, 
and we are chartering those committees today, and I am very 
pleased with the results.
    Mr. Udall of New Mexico. Thank you, Mr. Rey.
    Thank you, Mr. Chairman.
    Mr. Peterson. Thank you, and I recognize the timid 
gentleman from Arizona, Mr. Hayworth.
    Mr. Hayworth. Thank you very much. I thank the Chairman, 
and am listening with interest to my colleague from New Mexico 
and hearing the testimony.
    Welcome, Secretary Rey. Hearing us wax about the challenges 
of a quarter century brings to mind, at this time 25 years ago 
I was a freshman in college, so both personally and in terms of 
public policy, that was a long time ago.
    To follow the theme of reasonable, rational changes in 
terms of environmental legislation, I would like to return to 
the questions--and our Chairman touched on it briefly in 
questions earlier--dealing with the Thirtymile fire. This 
Subcommittee has had great concerns. We have met with many who 
have dealt with this.
    And it seems that within the current formulation of the 
Endangered Species Act, there are three statutory exemptions 
from the general purposes and provisions of the act, including 
Section 7, consultation requirements, that really have these 
three exemptions: one, exemptions in presidentially declared 
disaster areas; two, national security emergencies as decided 
by the Secretary of Defense; and, three, exemptions granted by 
a group that has really evolved in slang and I guess in essence 
to the so-called ``God Squad.'' And the tragedy of losing human 
life, and going back in hindsight, is that none of these are 
either relevant or helpful during an emergency situation like 
we experienced during the Thirtymile fire.
    Now in the Supreme Court case, Tennessee Valley Authority 
v. Hill, the Supreme Court found that Congress expressed 
exemptions were the only exemptions in ESA, arguing, ``Congress 
was aware of certain instances in which exceptions to the 
statute's broad sweep would be necessary. Thus, the Endangered 
Species Act creates a number of limited hardship exemptions. In 
fact, there are no exemptions in the Endangered Species Act for 
Federal agencies, meaning that under the maxim that the express 
mention of one is the exclusion of the others, we must presume 
that these exemptions listed above were the only hardship cases 
Congress intended to exempt.''
    In the wake of that opinion and ruling, there is no 
statutory provision for the Fish and Wildlife Service to 
administratively waive the dictates of the Endangered Species 
Act. On this issue, it would appear to me that our Endangered 
Species Act needs to be fixed, and the Wilderness Act emergency 
exemption language is an appropriate way to achieve that. Would 
you concur that we should explore these efforts and make this 
change in terms of protecting human life in these types of 
situations?
    Mr. Rey. In response to an earlier question from 
Congressman Peterson, I indicated that that sort of language in 
the Endangered Species Act would be helpful. At the same time, 
we believe presently that our direction to the field, both the 
Fish and Wildlife Service and the Forest Service, is clear that 
in these sorts of situations, fire fighter safety takes 
precedence.
    Now, we also acknowledge, as a result of the findings of 
the investigative report, that notwithstanding the clarity of 
that direction, there was confusion in this particular 
instance. This confusion was not causal to the loss of life of 
the four fire fighters, but it was nevertheless observed as 
documented in the report.
    Now, I guess another question you could ask is that, given 
the Supreme Court's holding in the Tennessee Valley case, is 
our existing direction to the field itself vulnerable to a 
legal challenge if some third party wanted to maintain that we 
don't have the authority to do what we think we have clearly 
done? And that I don't know the answer to. I would have to ask 
our general counsel whether they are comfortable that they 
could sustain a challenge in that area.
    But the short answer to your question is, that language 
would be helpful to have in the Endangered Species Act.
    Mr. Hayworth. Well, I thank you very much for coming in, 
and I appreciate your amplification of what is transpiring, and 
I think we should move forward to get this done legislatively 
in terms of the statute. Thank you, sir.
    Mr. Peterson. We now recognize the gentleman from Colorado, 
Mr. Udall.
    Mr. Udall of Colorado. Thank you, Mr. Chairman, and 
welcome, Mr. Rey. I know all of us here on the panel are 
inclined to forgive you for your long association with the 
Senate, and are glad that you are over here on the House side.
    I have some concerns about a number of Forest Service 
policies, but let me use my time in this first round to focus 
on one which seems to potentially involve a proposal that would 
reduce public involvement in decisions about some of the most 
sensitive parts of the national forests.
    I want to associate myself with my colleague from Colorado, 
Mr. Tancredo, who talked about the need for local input and 
local involvement. It seems to me that what is being proposed 
would actually restrict that kind of involvement. And although 
Mr. Tancredo and I don't agree on a number of issues, I think 
maybe we do on this particular one.
    What is involved, as I understand it, is how the Forest 
Service will meet the requirements of NEPA for considering 
their effects on planned actions involving so-called 
extraordinary circumstances, meaning that they could affect 
sensitive areas such as watersheds, threatened species habitat, 
or inventoried roadless areas.
    It is my understanding that under current rules, the Forest 
Service cannot apply a so-called categorical exemption to any 
planned actions involving these extraordinary circumstances, 
and so must either produce an Environmental Impact Statement or 
at least an EA, Environmental Assessment, regarding this 
planned action. And I also understand the Forest Service is 
proposing to revise its policies so that they could instead 
dispense with preparing that kind of NEPA document for planned 
actions involving these exceptional circumstances, provided, 
and this is key, that they decide on their own, without any 
requirement for public involvement, that the planned action 
would not have a significant effect on the resources involved.
    With that prelude, my first question is, is my 
understanding correct on these points?
    Mr. Rey. Not completely. Let me try to run through what the 
Forest Service is doing, and then let's talk about whether we 
think it is a good idea or not.
    Under our current regulations, if an activity, any 
activity--and I want to emphasize that, any activity--is 
conducted in the vicinity of certain categories of areas--wild 
and scenic rivers, wilderness, certain roadless areas, there is 
a list of about seven of them--if we conduct, if we propose to 
conduct any activity in the vicinity of these areas, we must, 
just by the mere presence of those areas, write an 
Environmental Assessment or an Environmental Impact Statement. 
We cannot, under current regulations, decide that the activity 
is so inconsequential that we should not spend the taxpayers' 
money doing that kind of analysis.
    What the proposal that is making its way through the system 
now would say is that the mere presence of those areas, the 
fact that they are in the vicinity of how we want to proceed, 
should not by itself, without regard to the activity in 
question, require an additional, a higher level of 
environmental analysis.
    Now, we would still be obliged, as we are under the current 
rules, to provide public notice and an opportunity for comment, 
even if we decide not to do an EA or an EIS, and I daresay that 
there will be instances where the public will say, ``No, no, 
the activity you are proposing does have consequences that the 
vicinity of these special areas require you to evaluate.'' In 
that instance we most likely will end up doing an Environmental 
Assessment or an Environmental Impact Statement.
    But there are a number of activities, trail maintenance in 
wilderness areas, for instance, where we can't imagine what 
value we are providing to the American public by spending their 
money to do an Environmental Assessment when we know that the 
environmental implications of what we are going to do are 
either negligible or positive. So that is what we are 
struggling with here. We are not intending to cut the public 
out or to shelter our decisionmaking from public review.
    But the Forest Service does more Environmental Impact 
Statements and Environmental Assessments than any other agency 
of the United States Government, and it just seems that we 
ought to be looking for ways to apply a rule of reason here, to 
put some of the money that we are spending processing those 
papers back into actual on-the-ground resource management. And 
this just seems to us to be an instance where the almost 
mindless requirement that if we are operating, we are going to 
do something, whatever that is, in an area near something else, 
shouldn't by itself kick in a paper processing requirement.
    Mr. Udall of Colorado. Mr. Chairman, I would note my time 
has expired, but I just did want to say that we have just 
scratched the surface of this issue. But Mr. Rey I am sure is 
familiar that in '98 the 7th Circuit Court of Appeals ruled in 
this regard, and I hope that what you describe is actually the 
spirit in which the Forest Service intends to proceed, because 
at best it would potentially involve litigation that would 
further tie up the very projects that we are trying to 
accomplish.
    Mr. Rey. That is absolutely correct.
    Mr. Udall of Colorado. And so I take your comments at face 
value, and urge you to consider the value of public input 
whenever possible. Thank you.
    Mr. Rey. We will definitely do that, and I would be more 
than pleased to come back to the Committee at some point in the 
future, at a hearing, to talk just about this rule only, 
because I think this is one where we should be able to reach an 
agreement.
    Mr. Peterson. Thank you. I remind the gentleman from 
Colorado, he has used a minute of his next round.
    Mr. Udall of Colorado. Duly noted, Mr. Chairman.
    Mr. Peterson. The gentleman from Idaho, Mr. Otter.
    Mr. Otter. Well, thank you very much, Mr. Chairman. Mr. 
Chairman, I did have an opening statement welcoming Mr. Rey, 
not only to his present position but also to the House. It is 
good to have his credentials and his knowledge of Idaho. And I 
would like to submit this for the record, if I might.
    Mr. Peterson. Without objection.
    [The prepared statement of Mr. Otter follows:]

    Statement of the Hon. C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho

    Mr. Chairman, I wish to thank you for inviting Mark Rey here today. 
President Bush's choice of Mark shows his concern for the needs of 
western forests and the people who depend on them.
    In a previous incarnation Mark served as a staffer for Idaho's 
senior Senator, my distinguished predecessor in this seat, Larry Craig. 
Mark follows in the footsteps of the chief forester, Dale Bosworth, who 
also has an extensive knowledge of Idaho.
    I mention that, Mr. Chairman, because Idaho's forests are in 
crisis. Since the beginning of the Clinton administration more than 30 
mills have closed in my state. Thousands of millworkers have lost their 
jobs, and thousands more in the towns that have lost their largest 
employers because of mill closures.
    The previous administration held our forests and forest users in 
contempt. They imposed a roadless rule that cut our mills of from their 
supplies. They failed to take steps necessary for fire prevention, and 
then allowed millions of acres of our forests to go up in smoke. They 
failed to prevent the importation of state subsidized Canadian lumber 
that violates the rules of fair trade.
    Fortunately, the Bush administration has taken steps to restore our 
forest policy to normalcy. I look forward to listening to Mark Rey's 
testimony.
                                 ______
                                 
    Mr. Otter. I now hold the House of Representatives seat in 
Idaho that Secretary Rey's former boss held, Senator Larry 
Craig, and I know Larry speaks very highly of you and looks 
forward with great anticipation to the job that we are all sure 
that you are going to be able to do.
    I would like to pursue some of the comments and some of the 
questions by several of the questioners before me, and I do so 
primarily because I also believe in a lot of local input. I 
believe that those people who are the most directly affected 
are generally the ones who, at least in the past, it appears 
sometimes are not listened to very much, and I reflect that on 
the 32 mills that closed during the last 8 years in Idaho, the 
thousands of jobs that were lost, and watching cities die or 
small municipalities die was not easy to do in Idaho.
    I am reminded of a story, that when I first came to the 
Congress, I met a young fellow that was also elected to the 
Congress, and as freshmen we were busily trying to find out as 
much as we could about the entire thing, the entire 
congressional picture, and also one another. And so in small 
talk I asked him how big his district was, and he said he 
thought it was about 22 blocks long and about 8 blocks wide. 
And he said, ``Why? How big is yours?'' And I said, ``Well, 
mine is 682 miles long and 150 miles wide, and I have two time 
zones in it.'' And he reflected that he thought he had maybe 22 
zip codes in his.
    And as curious as that whole conversation was, on the way 
home on the airplane I got to thinking that here is a person 
that shares basically my philosophy and certainly my party 
credentials, but also here is a person that, if I were to ask 
to amend the Endangered Species Act or the Clean Water Act to 
make it more workable for my district, there would be the 
belief, and I could see there is some validity to that, that he 
would perhaps think that I was trying to affect his ability to 
turn on the water tap in that 22-by-8 block area and not have 
the best and cleanest water come out of it. And if I were to 
talk to him about wilderness area, would it simply be the back 
alley that had the most muggings in it last weekend, as opposed 
to my wilderness area?
    And so I reflected on that, because it does affect 87,000 
miles of stream in my area. It affects all the watershed. And 
therefore it affects every job. It affects every pursuit of 
every occupation in my district. And so it is of great 
importance to me that certainly we maintain the environment 
that we want to, but it has also got to be workable for the 
local folks.
    And so it is that local input that so many times that I 
find out, in pursuing what the conscience, what the local 
conscience is of something, a new public policy that is being 
established, that so many times the local input becomes input 
from far, far away. And so I would like to know, in this local 
input that we are concerned about and encourage, could you 
qualify ``local input'' for me?
    Mr. Rey. When we talk about local input, I think we are 
generally referring to participation by people in the 
communities who are immediately adjacent or in many cases 
actually surrounded by our Federal lands. And, as I indicated 
earlier in response to a question from Congressman Kildee, 
those communities have changed appreciably over the last 20 
years.
    They are much more diverse than they once were, in terms of 
the kinds of people who live there and why they live there. 
There are amenity immigrants who have come to those communities 
because they like the out-of-doors and the life, the quality of 
life that they provide. So it is, the kind of local input we 
get these days in decisions affecting a national forest is a 
much more varied response than we have previously.
    The good news, though, is that by virtue of the proximity 
that they share, they do tend to want to work together to try 
to find common ground, and that is something that we hope to 
nurture.
    Mr. Otter. Thank you. Thank you, Mr. Chairman.
    Mr. Peterson. Now we recognize Mr. Holt from New Jersey.
    Mr. Holt. Thank you, Mr. Chairman, and thank you, Mr. Rey, 
for giving us some time.
    On the never-ending question of roadless areas, the Forest 
Service plans to build 47 miles of new roads in FY '02, and I 
presume--and I am sorry if I missed earlier statements--I 
presume that you favor keeping the policy where the Chief will 
personally sign off on any decisions to build new roads.
    Mr. Rey. That is correct.
    Mr. Holt. What I would like to hear, though, and forgive me 
if this is repetitious, but I would like to hear your criteria 
for making decisions, that either he or you should apply for 
making decisions for building new roads. I mean, does it 
include species protection? With regard to public input, is it 
local public input? Is it scientific public input? How do you 
try to get dissenting input, or would that--could you be as 
specific as you can in a minute or two about what the criteria 
would be?
    Mr. Rey. We are now talking about specifically building 
roads into roadless areas, as opposed to road construction 
generally, and the Chief has reserved for himself the right to 
approve any project in that regard. Any project that proposes 
road construction in roadless areas would have to go through a 
full public participation process. And in almost every instance 
if not every instance, and it may be the latter rather than the 
former, a full-blown Environmental Impact Statement would be 
required. That means that there would be an extended period for 
public comment that would include both local input as well as 
input by any national interest that wanted to offer their 
views.
    In the vast majority of instances where this will occur, it 
will be because the new road is necessary for forest health 
purposes or for administrative access. Most of the exceptions 
to those general criteria might occur in Alaska, where there is 
a very limited road network serving the national forests at the 
present time.
    Mr. Holt. Over the months I think we will want to pursue 
this more. Let me turn to an interesting statement that came 
from two Senators for whom you worked a few years back, that 
called for a custodial level of funding for the Forest Service. 
Now, I don't know what your role was in preparing that 
statement or supporting it, but I would like to know, now that 
you are overseeing this agency, do you think that the budget 
should be at a custodial level, or really what should it be at?
    Mr. Rey. I have already been implicated in supporting, as 
part of the administration, much higher budgets for the Forest 
Service, as have Senator Craig and Senator Murkowski after 
making that statement. That particular statement in its full 
context was in response to the proposed Roadless Area Rule, and 
in reaction to their strong view that the better way to address 
the disposition of the roadless areas was the traditional 
mechanism of having the agency make recommendations on a 
forest-by-forest basis to Congress as to which of these areas 
should be designated as wilderness.
    Their broader concern was that if the Roadless Rule was 
indicative of a broader strategy not to actively manage the 
national forests, then indeed what in their view we were 
arriving at was custodial management, and they then speculated 
that perhaps a funding level commensurate with that would be 
appropriated. Having made their point, however, they have voted 
on I think at least three subsequent budgets that resulted in 
much more robust funding for--
    Mr. Holt. Let me understand what has changed since that 
statement was made. Actually, I am not even sure that you say 
that you agreed with that earlier statement. I mean, surely it 
is not that things like the timber program are actually making 
money now, or that these other programs are profitable in any 
sense, so what has changed since then?
    Mr. Rey. What I think has changed specifically since then 
is that the courts have essentially agreed with their view as 
the legality of the national Roadless Rule, and they have 
forbeared from pressing the point about custodial management.
    Mr. Holt. All right. Thank you. Thank you, Mr. Chairman.
    Mr. Peterson. Yes. Earlier this year the GAO testified 
before this Subcommittee that there is a lack of coordination 
among the Federal agencies charged with implementing the 
National Fire Plan. Specifically, the GAO testified that the 
agencies had yet to establish consistent performance measures 
or criteria for identifying high risk communities. The GAO also 
said that this lack of coordination was substantially 
inhibiting the general progress and success of the program. 
What has the Forest Service, in conjunction with the Department 
of the Interior and its relevant agencies, done to address this 
issue?
    Mr. Rey. You know, I am going to regret all the GAO reports 
I helped order up over the years. The chickens are going to 
come home to roost.
    [Laughter.]
    Mr. Rey. We are working intently and intensively with the 
Department of the Interior to address many of the concerns GAO 
raised, and we will address many of the concerns GAO raise. We 
will, however, not address them within the time frame and 
necessarily in the order that GAO would prefer.
    One of the concerns I have with the general tenor of GAO's 
recommendations about how we proceed in implementing the 
National Fire Plan is that they seem to be suggesting--and 
maybe I am being unfair, maybe they would say this is not what 
they are suggesting--but at least to me, as I have read their 
reports, they seem to be suggesting that we should not proceed 
to begin fuel reductions until we have agreed upon 
prioritization schemes and approved fire management plans for 
each land management unit of the national forest system and the 
Bureau of Land Management.
    And I fundamentally disagree with that recommendation, 
because if we were to do that, we would not be doing any fuel 
treatments on the ground for at least 3 years or so. We believe 
we know enough now about where there are some priority needs 
crying out for treatment on the ground, that we ought to get 
about the process of doing that even as we go about the process 
of responding to GAO's recommendations, and making more orderly 
and more available to an auditor the priorities that we are 
using in carrying these things out.
    Mr. Peterson. As a follow-up, during the last two 
appropriations cycles, Congress has appropriated significant 
funds to the National Fire Plan in an attempt to get a handle 
on our Nation's forest health crisis. There is a concern that a 
lot of new equipment is being purchased and new people hired, 
but little fuels treatment work is being done on the ground. Is 
this factual?
    Mr. Rey. Not entirely. I would like to submit for the 
record the list of all of the fuels treatment projects that are 
underway in 2001, so that you can see for yourself that we are 
engaged in a considerable number of fuels treatment projects 
both within the wild land/urban interface and in other high 
risk areas.
    Clearly in the first year of implementation of the fire 
plan we are going to have a different mix in fire preparedness 
versus fuel treatment, and the agencies, both the Department of 
the Interior and the Forest Service, thought it was imperative 
to rebuild our fire preparedness capabilities. We have enjoyed 
the fruits of that this summer, in that we have successfully 
attacked and suppressed fires that would otherwise have 
consumed tens of thousands of acres, so that investment has 
already borne fruit.
    But we have been doing fuels treatments as well, and 
assuming that Congress continues to provide us with that level 
of funding, you will see an increase of that in the future. But 
I would like to submit for the record a list, a roster of all 
the fuels treatments done this year.
    Mr. Peterson. Thank you. I think that would be well 
received.
    Several weeks ago a coalition of environmental groups in 
the West unveiled a new campaign to preserve 1.1 million acres 
of older forest on public lands, including forests as young as 
80 years. Also, Senator Wyden, as Chair of the Senate Energy 
Subcommittee on Public Lands and Forests, has held a hearing on 
the subject and stated he is considering introducing 
legislation to protect old growth forest.
    Given your history with this topic, do you feel that this 
is the time to consider such legislation, or given the dynamic 
nature of forests, could there ever be a legislative solution 
to the old growth controversy?
    Mr. Rey. Let me deal with the part of the question 
involving Senator Wyden first, and go out on a limb a little 
bit, because I am going to reflect on a conversation I had, and 
he should have the opportunity to respond, to say whether I 
have got it right or not.
    Senator Wyden's view is that in the Northwest, in the area 
covered by the President's Northwest Forest Plan, there ought 
to be an opportunity to, one, increase thinning in areas where 
we are deficient in that regard, and thereby produce some 
additional timber that is utilizable by the sawmills in the 
region; and at the same time protect some old growth areas that 
were not protected by the plan. He has indicated an interest in 
pursuing that. I have indicated that we would work with him if 
he wanted to take that step.
    Mr. Peterson. Thank you. We have been rejoined by the lady, 
Ms. McCollum from Minnesota. You are recognized for 
questioning.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Rey, I would just like to clarify a couple of things I 
heard you say. I asked about, in the Thirtymile fire, about the 
Endangered Species Act the last time there was someone here 
from the Forest Service, and I was left with the clear 
impression that the Endangered Species Act itself did not cause 
the much sadness and devastation that went on during that fire.
    Mr. Rey. That is correct, and if I didn't say it clearly, I 
will say it more clearly now, that the delay attributable to 
confusion over the Endangered Species Act, while it existed, 
was not causal to the fatalities in question.
    Ms. McCollum. Well, then I heard you say that you needed to 
review the Endangered Species Act.
    Mr. Rey. No.
    Ms. McCollum. Just earlier today. So if the Endangered 
Species Act did not cause the--
    Mr. Rey. The Endangered Species Act did not cause the 
fatalities in question.
    Ms. McCollum. Thank you.
    Mr. Rey. The Endangered Species Act caused some delay which 
was identified in the report investigating the fire.
    Ms. McCollum. But was it communication that caused the 
delay, because there were--
    Mr. Rey. That is correct. Confusion over the requirements--
    Ms. McCollum. Because people didn't understand the 
Endangered Species Act--
    Mr. Rey. Correct. That is correct.
    Ms. McCollum. --not the act itself. It was confusion on the 
people not understanding it.
    Mr. Rey. That is correct.
    Ms. McCollum. Then, going back to your analogy of a slide 
rule versus computers when you were talking about hardwood 
forest to pine, ecosystems challenge and cost, so when we 
manage, when we try to do conservation, when we try to protect 
old growth, it is usually to try to keep things in that 
ecosystem in a way that keeps it, it is an entirety. So could 
you elaborate a little more, leaving the slide rules and the 
computers out of it, and talk about your vision for managing 
old growth forests and if that has anything to do with a cost-
benefit analysis from the forestry department?
    Mr. Rey. There is no cost-benefit analysis associated with 
the management decisions we make relative to protecting old 
growth values. I think the most important thing that I would 
urge people to keep in mind is that forests are dynamic 
ecosystems. They change over time. We have the scientific 
capability to perpetuate a particular kind of forest, old 
growth forest or younger seral stages, but in every instance 
that will require intervention as opposed to simply drawing a 
line around the forest and walking away, because forests are 
dynamic systems and change over time.
    Ms. McCollum. Well, Mr. Chair, Mr. Rey, maybe I am confused 
in what I heard, then, but I heard you talk about ecosystems 
challenging and balancing the cost. So you did mention cost. I 
wrote it down. Could you explain to me how ecosystems and 
challenging have some kind of cost effect to it?
    Mr. Rey. What I think I was trying to say in the context of 
the particular question about what parts of the National Forest 
Management Act could benefit from revision, is that we have 
learned more about ecosystems than we knew 26 years ago, and 
the language of the National Forest Management Act isn't 
reflective of that information, and we could have better 
direction and less confusion if we updated the act to reflect 
what we know.
    What I said with respect to costs, I think was in response 
to a different question from Mr. Udall involving a proposal 
that we have out for public comment now involving some of our 
National Environmental Act procedures. I indicated that I 
thought there were ways that we could achieve the same 
environmental result at a reduced cost if we were able to in 
some cases simplify those procedures. I don't remember, and I 
may be wrong, but I don't remember talking about costs when we 
talked about amending the National Forest Management Act.
    Ms. McCollum. Mr. Chair, Mr. Rey, I didn't say it had to do 
with the National Forest Act. I was just asking how it 
interplayed with when we were talking about different species--
    Mr. Rey. Was that answer helpful?
    Ms. McCollum. --and protecting ecosystems, and I very much 
appreciate the clarification. Thank you, sir.
    Mr. Rey. Thank you.
    Mr. Peterson. We thank the gentlelady.
    Does the gentleman from Idaho care for further questions?
    Mr. Otter. Yes, thank you very much, Mr. Chairman.
    You know, in speaking about old growth and the treatment on 
the ground, it is of great concern to us, especially in the 
Payette National Forest and the Boise National Forest and the 
Panhandle National Forest, part of the Sawtooth, on up into the 
northern reaches. One of the reasons for that is because 
between 1910 and 1913 we burnt millions of acres of forest. All 
that forest was replaced naturally by species that primarily 
have a 90 to 110-year live. That's it.
    So we are right now approaching a very dangerous threshold 
for that forest, in that it is going to die. It is just a 
matter of time. And the fact that it is in such a terrible 
state of health right now--you know, I have often said if it 
was a horse, I would have shot it because it was in pretty bad 
shape and I didn't want to see it suffering.
    But when we consider some of the limitations that have been 
put on good management of that forest, those limitations are in 
fact causing us environmental problems, because we have lost 
880,000 acres last year, all of that watershed which goes to 
the Salmon, the Clearwater, and now the Snake River and then 
the Columbia, all that soil, all that topsoil that is going to 
be washed off because now there is nothing there to hold it is 
causing a major environmental problem. And it probably would be 
in violation of the Endangered Species Act for us to allow that 
forest to burn because we are endangering the salmon.
    Yet we don't seem to be able to recognize, policy-wise, 
that we have these two things, these two public policies from 
Congress that are actually in conflict with one another. And so 
my concern is that, is the management plan, whenever we get it 
rocking and rolling, is it going to be able to reflect the 
natural death of those trees, the millions of acres in Idaho? 
And once they are dead, then they just, as you well know, they 
just turn into fuel for a fire.
    In fact, the 880,000 acres we lost was primarily, almost 
unfightable. And being an old fire fighter, I could not 
recognize the problem they were having because we didn't have 
forests like that when I was fighting fires. We didn't have the 
undergrowth. We didn't have the inaccessibility.
    Anyway, the point to my question is, is our National Fire 
Plan going to reflect things like our forest getting ready to 
die? Is it going to be able to reflect the necessary taking out 
of the undergrowth in order to protect that resource for us?
    Mr. Rey. The National Fire Plan does and will continue, as 
we continue to work with the governors, start from a premise 
that we have upwards of 70 million acres of forest with fuel 
loads that are outside of what we believe to be the natural or 
historical regime those forests evolved under. They are that 
way because of our management or nonmanagement decisions over 
the last 100 years.
    Apropos of the part of the country that you just described, 
there is a book published earlier this year called ``The Year 
of the Fires''--it is by Steven Pine from Northern Arizona 
University--that chronicles that year, 1910, and the fires that 
occurred, and it is a graphic illustration of why we are in the 
situation we are in right now.
    One of the main challenges, major challenges that we have 
in implementing the Fire Plan is in reconciling the broader 
implications of not dealing with those fuel loads and the kinds 
of fires that ensue from a watershed standpoint, and the effect 
that they have on threatened or endangered species like salmon, 
and the immediate aspects of the impacts of doing thinning or 
fuel load reduction activities on threatened or endangered 
species.
    This may be one area where the Endangered Species Act 
doesn't help us very much and isn't very clear, because the 
reviewing biologists when they look at a fuel reduction 
project, are not able to weigh the long-term benefit of doing 
the fuel reduction against the immediate impact associated with 
the disturbances that will be created when you go in and cut 
the trees. And that is very unfortunate, because they can only 
look at the latter, and not balance that short-term risk 
against the larger long-term risk that when that area explodes 
in fire, it will have a much more catastrophic effect on 
threatened or endangered salmon stocks.
    Mr. Otter. Thank you. Thank you, Mr. Chairman. I would only 
mention, in the 880,000 acres we burned, we had some depths up 
to 18 inches where the earth had been calcined. You know, 
unless it was a real muddy lumbering season, I never saw a 
track go 18 inches deep. By the way, the 1910 fire to which the 
Secretary and I have referred, we have some reaches on Slate 
Creek, which is a tributary to the St. Joe and then on into the 
Coeur D'Alene, that there is still nothing growing on reaches 
of the Slate Creek--I just was there about 3 weeks ago--because 
the earth was burnt so deep. It's like trying to grow something 
in a jar of marbles.
    Mr. Peterson. We thank the gentleman.
    I very reluctantly recognize the gentleman from New Mexico. 
He said he had 15 pages of questions, and I think that would 
endanger my dinner hour, so I will cautiously turn the mike 
over to the gentleman from New Mexico.
    Mr. Udall of New Mexico. Mr. Chairman, I won't ask them all 
in this 5 minutes. Okay?
    Mr. Peterson. We will allow you to present the rest of them 
for the record, because Mr. Rey would look forward to answering 
all of them, I am sure.
    Mr. Udall of New Mexico. I do have a number of other 
questions, and would be happy to stay here a little bit longer.
    Mr. Rey, earlier you mentioned an exchange of letters 
between the administration and several environmental groups 
regarding future discussions about roadless areas. Could you 
submit those letters for the hearing record, for the 
information of the Subcommittee.
    Mr. Rey. Be happy to, and it was a consortium of 
environmental and other groups. It wasn't exclusively 
environmental groups. It was under the auspices of the Teddy 
Roosevelt Institute.
    Mr. Udall of New Mexico. Okay.
    Mr. Peterson. Without objection, they will be accepted.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    Mr. Rey, in October of 2000, over at the University of 
California, at the Center of Forestry, you gave a speech to the 
Forestry School there and you used pretty strong language about 
the Roadless Rule. I mean, you at one point talked about--and 
this is on page 4 of the speech that I have--you said, ``By 
executive fiat, the President almost doubled the size of 
restricted land, leaving many in Congress dumbfounded, the 
Forest Service paralyzed, and citizens angry and without a 
voice.''
    And then you seemed to quote from a supervisor of one of 
the Nation's largest forests, very approvingly, of a letter 
that he sent to Forest Service Chief Dombeck, where he said in 
a letter, ``I have been a line officer for just over 20 years 
and a Forest Service supervisor for over 10 years. In all of 
that time, I have never experienced such public disbelief and 
animosity directed toward any policy proposal as this one,'' 
referring to the Roadless Rule.
    And I am a little mystified here today by your testimony 
where you talk about being responsible and balanced and having 
this balanced approach on the Roadless Rule, because the 
Roadless Rule, as you know, the Clinton Administration took a 
significant period of time--despite some of these things in the 
press that this was done at the last minute--took a significant 
period of time. There were 600 hearings. They went to 
communities all over the West. They came to my State; I know 
they came to many other western States. We had 1.6 million 
comments. Ninety-five percent of the comments said that they 
wanted more protection for roadless areas.
    And so I am wondering, you know, what this new rule that 
you are going to come out with, are you going to do that kind 
of extensive hearing process where you really hear from the 
people?
    Mr. Rey. We may, depending on how we proceed with the 
advice of the groups who have offered us their advice, but that 
will come as we get further along in our process. I think you 
would agree--
    Mr. Udall of New Mexico. So you are not going to commit to 
doing a hearing process that is just as open and just as broad, 
and letting the American people speak?
    Mr. Rey. That was where I was going to go to next.
    Mr. Udall of New Mexico. Well, please do.
    Mr. Rey. There were indeed a number of hearings, an 
extraordinary amount of public comment, but all of those 
hearings and all of that public comment followed--it did not 
precede, it followed--the President of the United States making 
an announcement that his government was going to do this. And 
it seems to me that anybody who wanted to be skeptical or 
cynical about whether their comments were going to be truly 
listened to, had good reason to be in the way and the order in 
which events unfolded.
    So I will pledge to you one thing today, and that is, I 
will never advise the President of the United States to 
announce the outcome of a rulemaking before it begins. And if, 
contrary to my advise, the President does that, he will have my 
resignation on his desk.
    Mr. Udall of New Mexico. So is your position that what 
happened in that rulemaking, because the President said this is 
a good idea, this is the road we should head down--
    Mr. Rey. It wasn't--
    Mr. Udall of New Mexico. --that then all these people that 
were out there, these local people and environmentalists that 
were against the rule and all these people, they just decided 
not to show up at all these hearings? I mean, I still don't 
understand. You have a year and a half of hearings. You have 95 
percent of the comments saying they want more protection. You 
have millions of comments on this. And where were all the 
people that you are talking about in your speech here, that 
objected so strongly to what was going on here? What happened 
to them?
    Mr. Rey. Their comments are in the docket, too. They were 
reflected in the docket. They were admittedly less numerous 
than those who supported the rule, but we both know how the 
comment process works. Groups mobilize.
    But it wasn't just the President announcing that this was a 
good idea and that they were going to proceed. To follow, in 2 
months after the President's announcement, the Secretary of 
Agriculture made the same announcement. In his State of the 
Union address following, the President thereafter said, ``We 
have done this.'' And in a May appearance the Vice President 
also acknowledged, ``We have done this.'' All four of those 
statements preceded the close of the public comment period on 
this rulemaking.
    And that, among other reasons, is why I think the courts 
overturned it, because that is not the way rulemaking should be 
conducted by the executive branch. It doesn't send a message to 
the public that their comments are valued, that their comments 
are relevant, and that their comments are going to be listened 
to. And we will never do that, I promise you.
    Mr. Udall of New Mexico. Well, you are going to propose a 
rule. Am I correct?
    Mr. Rey. That is correct.
    Mr. Udall of New Mexico. And you are going to propose a 
rule, and everybody out there I think is going to know that the 
administration has proposed a rule, and presumably you and the 
Secretary of Agriculture and the President will have all talked 
about it, so you will be in support of the rule that you 
propose. Is that correct?
    Mr. Rey. But we will never make categorical statements in 
the past tense, taking credit for this as already being done 
before the comment period closed, and that is what the previous 
administration did, not once, not twice, not three times, but 
on four separate occasions. And I don't, you know, I don't mean 
to rehash old ground over that. It has happened. The courts are 
in the process of reviewing it. We will be directed by whatever 
the courts review.
    But I think it is worthwhile to acknowledge that that 
occurred, because it explains the intensity of feeling the 
groups had about that rule--both positive feelings, because if 
I was in favor of that rule, I would be delighted that the 
President, the Vice President, and the Secretary had already 
told me what they were going to do. I would be ecstatic. If I 
was opposed to that outcome, I would be downhearted, I would be 
devastated, and I would wonder whether it is worth my time to 
show up at a public hearing, to tender comments, to offer my 
views, when for all practical purposes it appears that the 
decision has already been made.
    Mr. Udall of New Mexico. Thank you very much for your 
answer.
    Mr. Peterson. The gentleman's time has expired.
    Mr. Rey, the characterization that we just heard was that 
the Clinton proposal took a year and a half, had a year and 
half of hearings. As I recall, it was a little closer to a 
year.
    Mr. Udall of New Mexico. It was a very lengthy period.
    Mr. Peterson. I will accept that.
    Mr. Rey. Actually, if I could interject, I thought it was a 
very short period. We take more time than that to do an 
Environmental Impact Statement on a project that affects 10 
acres, let alone one that affects 70 million acres. I think 
that was a relatively short period of time--
    Mr. Udall of New Mexico. Well, I hope you will commit on 
your rule for--that is what I was asking you--a much longer 
period of time.
    Mr. Rey. I am sure it will take us a longer period of time.
    Mr. Udall of New Mexico. And many more comments on your 
rule. I hope you commit to that kind of openness.
    Mr. Peterson. Mr. Rey, back to my time, I reclaim my time.
    Mr. Udall of New Mexico. Sorry.
    Mr. Peterson. Isn't it true that a forest plan takes up to 
5 years?
    Mr. Rey. That is if--
    Mr. Peterson. And that is just for a single forest?
    Mr. Rey. That is correct. It takes longer in many 
instances.
    Mr. Peterson. What is the longest that you have ever seen a 
forest plan take?
    Mr. Rey. Eternity, seems to be. It seems to be that that 
is--
    [Laughter.]
    Mr. Peterson. So if we are talking about 70 million acres, 
it probably should have taken a little longer than that.
    Mr. Rey. Well, I mean, I think that is--the observation 
that the court made in reviewing the rule was in many respects 
similar to the observations that the court offered 20 years 
ago, the last time we tried to do this through a single 
rulemaking in the Carter Administration. And in each instance 
the court called into question whether, however many hearings 
you have nationwide, you can adequately assess the site-
specific impacts associated with a decision of this magnitude.
    And I think that is probably the more pertinent question, 
rather than how many comments we solicit or how many meetings 
we had. It is the quality of the decisionmaking process and the 
analysis that is used, not the quantity of the people we turn 
out.
    Mr. Peterson. I would also like to note for the record, in 
light of what has been said, that in many of the hearings, the 
public hearings were extremely deficient in the information 
that was given out relative to the maps of the areas that were 
being considered. In fact, after the decision was made, after 
the policy was stated, we still lacked definitive maps to show 
us exactly what--isn't that true?--what the plan was 
presenting.
    Mr. Rey. That was certainly true with the first round of 
hearings. I believe it got better with the second, but 
nevertheless that was one of the flaws that Judge Lodge cited 
in issuing the preliminary injunction on the rule.
    Mr. Peterson. Thank you very much. Mr. Inslee?
    Mr. Inslee. Thank you, Mr. Chairman.
    Mr. Rey, my apologies for not being able to join you. We 
had a mark-up over--taking care of our reinsurance industry 
issues, so if I am redundant, my apologies to you.
    We did have an extraordinary outpouring of citizen comment 
on the Roadless Rule. I don't know if there has ever been such 
an emotive response to an issue, and the sort of tenor of the 
comments were extraordinarily one-sided, I think, at least in 
my reading of them, showing a huge, huge majority of folks who 
were committed to retaining the roadless characteristic of 
these forests. That is my reading. If you have a different 
reading, I would like to know your comments about that.
    But, secondly, could you tell us, to the extent you can 
now, what you have done to modify or affect your proposed rule 
in response to that overwhelming sentiment? And if you could be 
as particular as you can, it would be great.
    Mr. Rey. First let me give you my observations, and I am 
going to get the exact numbers wrong, but we will correct them 
for the record.
    My recollection is, the Forest Service received somewhere 
in the neighborhood of 1.2 million comments on the Roadless 
Rule. I think it is important to keep clearly in mind that 1 
million or thereabout of those comments were delivered on the 
last day in an organized sort of ``get out the vote'' effort. 
And there is nothing wrong with that. In fact, that is 
democracy at its best and democracy in action. Whether it 
reflects a deeply held public view or the good work of some 
very capable organizers is, I think, an open question.
    Of the remaining 200,000 comments, they were more evenly 
divided as to their views on the Roadless Rule. If you take and 
excise comments just from State and local elected officials, 
people who arguably share the same responsibility that we do as 
public servants, my recollection is that there was a 70 
percent/30 percent run against moving forward in this fashion.
    Much of the dispute over the Roadless Rule was at its heart 
not a dispute over the need to protect roadless values, nor a 
dispute over whether additional areas should be designated as 
wilderness. It was rather a dispute over the means which the 
previous administration chose to pursue its ends.
    I hope, and as I said earlier, I am not at all convinced we 
will do better, but we are going to try. We have so far issued 
an Advance Notice of Proposed Rulemaking, where we asked the 
public to respond to some basic questions about how we might 
best proceed. And, as I said earlier today, the administration 
and a consortium of groups, under the auspices of the Teddy 
Roosevelt Institute, exchanged letters, whereby the institute 
is willing to sponsor a dialogue with a broad cross-section of 
national groups to give us some advice on how we best proceed.
    As to what we are specifically going to do in the proposed 
rule, we haven't gotten that far yet. And one of the things 
that I will be very mindful of as we get further, is to 
describe what we are proposing as proposals, to be honest and 
sincere in soliciting the public's views and the views of 
various groups about the merits of those proposals and whether 
they think they would support them or not. And that is one 
commitment that I feel very strongly about, because a good deal 
of the public cynicism for those who opposed the Roadless Rule 
was that it was presented in a preemptory fashion, as a policy 
that had been adopted, not one that was being proposed.
    Mr. Inslee. Well, from the tenor of your comments, I take 
it that somehow you give a two-tiered approach to comments by 
citizens, one which is the upper tier, which is something I 
guess I envision written on an individual piece of paper; 
another that in this case came in by the hundreds of thousands, 
which were perhaps more uniform in their statement on a 
preprinted tab. And I want to tell you that I think that is 
really missing the boat on how to assess public sentiment on 
this.
    And the reason I say that is, if the administration really 
wants to know what people think about this issue by the people 
they work for, namely the citizens, your assumption that 
somehow these hundreds of thousands of people who wrote you 
letters should be sort of undervalued would only be correct if 
the other side of the coin didn't have resources enough to go 
out and ask people what they thought. And the fact is, the 
folks who wanted to minimize the roadless area policy have got 
plenty of resources to let you know what people think. It is 
just that they didn't have hundreds and hundreds of thousands 
of people who thought that way.
    And I really think that you need to reexamine how you 
evaluate citizens' comments, if in fact that is the case. And I 
would like to ask you one more question, but I am out of time 
here. Thank you.
    Mr. Rey. Could I just respond briefly?
    Mr. Inslee. Sure, from my point of view, anyway.
    Mr. Rey. Last month a web site named voter.com asked a 
question about whether my confirmation should be approved by 
the Senate or not. I won, 90 percent to 10.
    Mr. Inslee. On vote.com you would, believe me.
    Mr. Rey. Now, Mr. Inslee, you and I both know that that was 
because certain interests who were supporting me mobilized 
better than others. Whether that is a real reflection on my 
qualifications for the office or on how I am going to discharge 
the public trust is a different question, and I am not sure 
simply counting heads is the best way to manage our national 
forests or any of our other environmental resources. I don't 
think we want to go down that road, because what the statutes 
have required in the past is that we apply scientific 
information to deal with complex environmental quality control 
problems.
    Mr. Peterson. Against my better judgment, I am going to 
allow Mr. Udall one more question.
    Mr. Udall of New Mexico. One more question? How about--
    Mr. Peterson. That is it, one more question. I have still 
got the hammer, and I have got to leave, and I don't trust 
either one of you with the hammer, so--
    [Laughter.]
    Mr. Udall of New Mexico. Oh, that hurts, that hurts. If I 
was in your position, I would trust you.
    Mr. Peterson. Your time is about up, Mr. Udall.
    [Laughter.]
    Mr. Udall of New Mexico. Okay. Mr. Rey, thank you very much 
for coming today. Your comment about protecting roadless 
values, that this administration and you are going to see that 
you protect roadless values, I want to ask you about that 
because I am wondering how you are going to protect. We have 
set aside the Clinton rule. We have got your new rule coming 
in. You have got an interim set of advice going on with that.
    And apparently the interim rule allows the Chief to sign 
off, but there is an ``unless,'' unless the planning process is 
complete, and apparently in 12 forests across the country, 
including the Tongass, the planning process is complete, and 
timber sales are already being planned up in the Tongass. So I 
am wondering, what is this administration doing to protect 
roadless values in the interim, before you get a rule in place 
if timber sales are already going on in the Tongass. The 
Tongass had the protection under the previous policy. Normally 
you would have to had to go through a whole other policy to 
open it up, but now apparently through this interim policy you 
are able to go ahead and log.
    Mr. Rey. Well, first off, protecting roadless values, I 
hope we would agree, doesn't mean protecting every single acre 
of the roadless areas that exist out there right now. And part 
of the difficulty in reaching decisions here is to work through 
the areas in a way that makes sense, so that people who are 
interested in specific areas get the opportunity to offer their 
views.
    On the Tongass, any roadless areas that are entered during 
this interim period, if any are entered, any that are entered 
will only be entered with a full Environmental Impact Statement 
preceding that decision, so the highest level of protection 
available under existing law is going to be applied to that 
decision.
    Mr. Udall of New Mexico. And you are announcing at this 
point that you are going forward with logging in the Tongass?
    Mr. Rey. We are not going forward with logging in the 
Tongass.
    Mr. Udall of New Mexico. In the roadless areas.
    Mr. Rey. Forest management in the Tongass continues, and 
there is some portion of roadless areas that are part of the 
timber base in the existing Tongass land management plan, but 
it is something in the neighborhood of one hundredth of 1 
percent that would be affected during the period where we will 
be struggling with this Roadless Rule. That is a maximum, one 
hundredth of 1 percent of the Tongass could be affected, and it 
will probably be significantly less than that.
    Mr. Peterson. I am going to bring this hearing to a close 
now.
    Mr. Udall of New Mexico. So the answer is--
    Mr. Peterson. We are already over. We are already over 
time.
    Mr. Udall of New Mexico. Well, I still have my green light, 
Mr. Chairman.
    Mr. Peterson. This is your third question, too.
    Mr. Udall of New Mexico. No, it is one question, but I 
thought you were giving me a round to finish my green light.
    Mr. Peterson. I gave you one question. Did you ask, was the 
last question yes or no?
    Mr. Udall of New Mexico. Well, I was trying to get him to 
simply say yes.
    Mr. Rey. The answer to the last, well, it isn't a yes or no 
question. The answer to the question is perhaps yes, but only 
after the strictest environmental reviews are going to be 
conducted.
    Mr. Peterson. And on that, we bring this hearing to a 
close. Mr. Rey, I thank you very much for your attendance here.
    Mr. Udall of New Mexico. Mr. Chairman, could I just note 
for the record that I did have a number of other questions to 
be asked, and submit them for the record, please?
    Mr. Peterson. And not only that, but we do ask Mr. Rey, if 
we submit these questions to you, the record will be open for 
10 days, and we would like for not only Mr. Udall but any other 
Member who may submit questions to you, that you respond to 
those questions. They will become part of the permanent record.
    Mr. Rey. We would be happy to respond to those questions, 
and we would like to provide to you for the record our 
responses to all of your questions, save two, from the last 
hearing. We have just cleared them today so that I could bring 
them up to you this afternoon.
    Mr. Peterson. Thank you very much, Mr. Rey. And knowing 
that there is no other business to come before this 
Subcommittee, we are adjourned.
    [Whereupon, at 5:54 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
